UN ITED STATES OF AM ERICA

FEDERAL TRADE COMMISSION
W ASH IN GTO N , D .C. 20580

D ivision of M arketing Practices
Craig Tregillus
ctregillus@ ftc.gov

D irect D ial: (202) 326-2970
Facsim ile: (202) 326-3395

March 18, 2009
Mr. Mark W. Duffey, President
Everest Funeral Package, LLC
1300 Post Oak Blvd. - Suite 1210
Houston, TX 77056
Dear Mr. Duffey:
You have requested a staff opinion on whether the Commission’s Funeral Rule permits a
funeral provider to decline to provide detailed price information in response to a telephone
request made by or on behalf of your company. The Funeral Rule is clear: funeral providers
must provide price information by telephone to anyone who calls seeking such information.
Everest is a nationwide funeral planning and concierge service that provides its
customers with pre-need and at-need funeral planning assistance. A key feature of Everest’s
services is its “PriceFinder Report, an online tool that allows consumers to obtain comparative
price information for funeral homes in their area. In order to obtain this information from the
more than 20,000 funeral providers in the United States, Everest contracts with a telephone call
center that telephones each provider annually to ask for the information on its General Price List
(“GPL”).
Section 453.2(b)(1) of the Funeral Rule requires funeral providers to “[t]ell persons who
ask by telephone about the funeral provider’s offerings or prices any accurate information from
the prices lists described in paragraphs (b)(2) through (4) of this section [the Casket Price List,
the Outer Burial Container Price List, and the GPL] and any other readily available information
that reasonably answers the question.”1 Section 453.1(o) of the Rule defines a “person” as “any
individual, partnership, corporation, association, government or governmental subdivision or
agency, or other entity.”2 Thus, Everest and its call center agents are “persons” entitled by the
Rule to obtain price information by telephone from all “funeral providers.”
In the original Statement of Basis and Purpose for the Rule (“SBP”), the Commission
emphasized that the requirement that funeral providers give price information by telephone upon
request advances one of the Rule’s primary goals; namely, to allow for comparison shopping:

1

16 C.F.R. § 453.2(b)(1) (emphasis added).

2

16 C.F.R. § 453.1(o).

Mr. Mark W. Duffey
Page 2 of 3
The second disclosure requirement, the telephone price disclosure requirement,
addresses directly the record evidence that funeral directors have failed to respond
to telephone inquiries about prices. Consumers will thus have the ability to call
several funeral homes and compare their offerings before deciding where to
purchase. . . . In many instances, obtaining price information by telephone
represents the only practical opportunity for comparison shopping, since many
options are foreclosed once the funeral home is [chosen].”3
The FTC’s Compliance Guide for funeral providers, Complying with the Funeral Rule
(“Compliance Guide” or “Guide”), emphasizes that if a call requesting price information is
received by a funeral provider, the call must be returned and the price information requested
must be provided.4 The Guide also makes it clear that funeral providers “cannot require callers
to give their names, addresses, or phone numbers before [giving] them the requested
information,” and cannot refuse to provide price information to callers who refuse to identify
themselves.5 The Guide also indicates, as the Rule provides, that the telephone price disclosure
must be made by a “funeral provider” that receives a telephone inquiry about prices.6 Nothing in
the Rule authorizes a funeral provider to require a caller to place a second telephone call to a
third party (e.g., an attorney) to obtain price information by telephone.
The Funeral Rule is a trade regulation rule duly issued by the Commission that has the
full force and effect of federal law. As the Commission noted in the SBP, unless a state has
obtained an exemption pursuant to § 453.9 of the Rule, “any state laws which conflict with this
rule after its effective date are preempted to the minimum extent necessary to resolve that
conflict.7 The same would be true for any state law enacted since that time.

3

47 Fed. Reg. 42260, 42272 (1982). The Commission also noted that “[c]onsumer
groups and state officials in numerous states reported substantial resistance or flat refusals when
they attempted to gather price data by telephone for survey purposes.” 47 Fed. Reg. at 42268.
When it amended the Rule in 1994, the Commission cited evidence that “the Rule overall is
contributing to increased consumer ‘price sensitivity’ that leads some additional consumers to
. . . seek comparative price information from non-industry sources . . . such as calling memorial
societies, media price ‘hotlines,’ or state agencies that make comparative price information
avai1able.” 59 Fed. Reg. 1592, 1602 (1994).
4

Compliance Guide (2004), p. 20.

5

Id.

6

Id. (“You must give consumers who telephone your place of business and ask
about your prices or offerings accurate information from your General Price List, Casket Price
List, and Outer Burial Container Price List”) (emphasis added). See also 16 C.F.R.
§ 453.2(b)(1).
7

47 Fed. Reg. at 42287 (footnote omitted).

Mr. Mark W. Duffey
Page 3 of 3
For these reasons, it is a violation of the Funeral Rule for a funeral provider to refuse to
provide price information by telephone upon request to any person for any reason, such as:
!

State law does not require a funeral provider to disclose price information by telephone,
or permits a funeral provider to refuse to provide price information by telephone;

!

Price information can be provided only by a third-party other than the funeral provider
(e.g., the funeral provider’s attorney);

!

The caller will not disclose information about their organization, or what it intends to do
with the information;

!

The caller is not a consumer seeking to make funeral arrangements with the provider;

!

The caller will or may profit from receipt of the pricing information requested;

!

The caller has not requested price information in person at the funeral home;

!

The caller has not requested price information in writing; or

!

The caller has not paid a fee, or agreed to pay a fee, for the price information.

At the same time, as the Guide recognizes, funeral providers may: (1) use answering
machines to record incoming calls or to advise callers to call a specified number during business
hours to get price information; (2) decline to provide price information outside of regular
business hours if that is the provider’s normal practice; and (3) take a message if in the middle of
an arrangements conference, and call back to provide price information at a later time.8 In each
of these cases, the Rule requires that the funeral provider furnish price information promptly by
returning the telephone call.
As you know, the views expressed in this letter are those of the FTC staff. They have not
been reviewed, approved, or adopted by the Commission, and they are not binding on the
Commission or any individual Commissioner. However, they do reflect the views of FTC staff
charged with enforcement of the Funeral Rule. Staff Funeral Rule opinions are routinely posted
on the FTC website at http://www.ftc.gov/bcp/conline/edcams/funerals/staffopinions.shtm.
Sincerely,
/s/
Craig Tregillus
Funeral Rule Coordinator

8

Id.

